                                                   ~Sl!cu
                                                  :>u
                                                   ~~
                                                 Wfts~~
                                                 \ 1II1II1~!
                                                    """lST\1J'-
                                     SOOAL          SECURITY

MEMORANDUM                           Office of the Inspector General
Date:   May   30,   2001                                                             Refer To: ICN   31150-23-163

To:     Larry G. Massanari
        Acting Commissioner
         of Social Security
From:
        Inspector General


Subject:Effectiveness of the Social Security Administration's      Special Project Reviews of
        Supplemental Security Income Recipients (A-09-99-62010)


        The attached final report presents the results of our evaluation. Our objective was to
        assess the effectiveness of the Social Security Administration's special projects in
        identifying Supplemental Security Income recipients who receive improper or fraudulent
        payments.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James      G.   Huse,   Jr.


        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



 EFFECTIVENESS OF THE SOCIAL
  SECURITY ADMINISTRATION’S
 SPECIAL PROJECT REVIEWS OF
    SUPPLEMENTAL SECURITY
      INCOME RECIPIENTS

    May 2001    A-09-99-62010
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        Executive Summary
OBJECTIVE
The objective of our evaluation was to assess the effectiveness of the Social Security
Administration’s (SSA) special projects in identifying Supplemental Security Income
(SSI) recipients who receive improper or fraudulent payments.

BACKGROUND
In October 1998, SSA issued a management report entitled, “Management of the
Supplemental Security Income Program: Today and in the Future,” to present a plan for
strengthening the integrity of the SSI program. The plan stated that the redetermination
(redet) process is the most powerful tool available to SSA for improving the accuracy of
SSI payments. The report disclosed that the process generated savings (collected and
prevented overpayments) of $8 for each $1 spent. This cost-effectiveness resulted from
the use of a process to identify cases likely to contain payment errors. The process
weighs the relative risk that various case characteristics will cause payment errors.
SSA uses the results to determine both the frequency and the methodology for
conducting redets (i.e., mail contact or personal interview). This is done by categorizing
the level of risk for each redet as low, medium or high.

In 1998, the New York Regional Anti-Fraud Committee initiated a redet special project
to verify the eligibility of SSI recipients in New York State. A concern was that SSI
recipients may be residing in foreign countries. SSI eligibility requires that individuals
be U.S. residents. Residency under the SSI program requires that recipients intend to
be permanent U.S. residents and not be absent from the United States for 30 or more
consecutive days.

Initially, the project consisted of foreign-born recipients who had not used Medicaid
services for at least 15 months. It was later expanded to include recipients born in the
United States who also had not used Medicaid for a 15-month period. The rationale for
the project was that SSI recipients who had not used Medicaid services for at least
15 months were at risk of being outside of the United States for extended periods.

In early 1999, a similar project was initiated in the State of California. This special
project included all SSI recipients who were at least 78 years old and had not used
MediCal (the State’s Medicaid program) for over 1 year. The project emphasis was on
detecting recipients who might be deceased.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)             i
RESULTS OF REVIEW
We concluded that the New York project was effective in identifying SSI recipients who
were ineligible due to U.S. absences. However, residency was the only significant type
of SSI error identified. Moreover, the problem of U.S. residency was only significant for
recipients with specific characteristics, the most significant being foreign-born. Our
analysis of the New York project disclosed at least 20.3 percent of the foreign-born
recipients had periods of ineligibility because of U.S. absences. In contrast, only
0.2 percent of the U.S.-born recipients reviewed had payment errors caused by
U.S. absences.

Overall, these special projects did not focus as effectively as SSA's redet process on
cases with errors. We estimated that the error rate for High-Error Profile (HEP) redet
cases in Fiscal Year 1999 was 48 percent. The HEP reviews represent cases that,
based on identified characteristics related to errors, are the most likely to contain
payment errors. The HEP error rate was about twice as high as the average error rates
of the New York and California projects.

However, the New York and California projects disclosed that the redet process was not
effective in identifying recipients who were ineligible for SSI due to absences from the
United States for extended periods. We identified two reasons for this. First, the case
characteristics used to identify the level of risk for redets gives little weight to
U.S. residency because absence from the United States is not a significant reason for
terminating benefits for the SSI population taken as a whole. Second, the redet reviews
lack effective procedures for verifying the residency of SSI recipients.

SSI eligibility requires that recipients be present in the United States and that they
intend to be permanent residents. The determination of an individual’s intent to be a
permanent resident can be a difficult decision to make and support. Another
administrative problem for SSA is how to monitor the residency status of recipients and
enforce the requirement that recipients report any planned absences from the
United States of at least 30 consecutive days.

CONCLUSIONS AND RECOMMENDATIONS
The projects in New York and California disclosed that SSA is vulnerable to paying
benefits to recipients who are ineligible due to absences from the United States of 30 or
more days. However, these errors were only significant for foreign-born recipients.
Thus, future projects intending to identify residency errors would be most effective if
they focused on foreign-born SSI populations. Other high-risk factors included prior
U.S. absences, long periods since prior redets by personal contact, and ease of access
to foreign travel. We also believe that SSA should consider other methods to establish
and monitor the residency status of claimants and recipients who are at high risk of
being absent from the United States for extended periods. We recommend that SSA:




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)            ii
�	 Integrate high-risk factors related to residency into the redet case selection process.
   Factors identified as part of the projects include foreign-born status, prior periods of
   U.S. absences, time lapsed since a redet by personal contact was done, and the
   ease of access to foreign travel.

�	 Focus future special initiatives similar to the New York project based on the high-risk
   factors specified above.

�	 Expand the use of contracted investigators to visit the residences of claimants or
   recipients considered at high risk of not satisfying the U.S. residency requirements.

�	 Use other methods to address residency issues, such as: (1) issuing "come-in"
   letters that require face-to-face interviews of recipients considered high-risk,
   (2) requiring high-risk recipients to provide documentation to support their residency
   status, and (3) requiring photo identification to verify the identity of recipients during
   redets.

�	 Develop factors, such as the extent of prior periods of U.S. absences, to assist field
   offices in establishing the intent of claimants and recipients to be permanent
   U.S. residents.

�	 Use penalties against recipients who have patterns of not reporting extended
   U.S. absences.

AGENCY COMMENTS
SSA generally agreed with our recommendations. The Agency believes, however, that
using foreign-born status as one of the high-risk factors would raise constitutional issues
and that such a policy probably would not satisfy the resulting judicial scrutiny. SSA’s
Office of the General Counsel (OGC) added that “non-citizen status” would be a legally
supportable classification. The Agency also commented on the lack of a
recommendation concerning the key factor being used in its SSI projects, the
nonutilization of medical insurance.

OIG RESPONSE
We are encouraged by SSA’s commitment to identifying high-risk characteristics and
measuring cost effectiveness in the redetermination case selection process. Regarding
the use of foreign-born status as the lone risk factor, OGC believes that a policy of
“targeting” foreign-born recipients would not be legally supportable; however, a
“classification” based on “non-citizen status” would be legally supportable. While we
generally agree with this analysis, it misses the point of our audit recommendation.

We are not recommending that SSA treat all foreign-born individuals differently under
the SSI program. As the OGC states, such a policy would be impermissible unless it
served a compelling governmental interest and was narrowly tailored to further that


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)            iii
interest. Instead, under our audit recommendation, foreign-born status would be one
relevant factor, among several factors, indicating a high risk of ineligibility for continuing
SSI payments due to a failure to meet SSI residency requirements.

Individuals with ties to a foreign country—here, the fact of their birth—would logically be
more likely to leave the country than individuals without such attachment. Nonuse of
medical benefits for one year is also relevant, because it may also indicate that an
individual has left the country. Finally, residence in an area near easy access to foreign
travel also increases the likelihood that the individual has left the country. We are only
recommending that SSA use country of birth as one of the indicators of possible
improper or fraudulent payments involving recipients who may be ineligible due to U.S.
absences.

We were unable to assess the effectiveness of using nonutilization of medical insurance
as a selection factor. The reason was that there was no control group of recipients who
had used their medical insurance for comparison purposes. However, we were able to
conclude the HEP redeterminations were significantly more effective than the special
projects. SSA needs to consider this when allocating resources to its SSI
redetermination efforts.

We also believe that SSA needs to consider the methods suggested in
recommendations 3 and 4 as procedures that can be used by field offices to
supplement, not replace other redetermination processes. These are tools that could
assist field staff in developing suspicious cases.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix A.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)             iv
                                                           Table of Contents

                                                                                                                  Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 6


    NEW YORK PROJECT..................................................................................... 8


    �    Foreign-Born Recipients .............................................................................. 8

    �    U.S.-Born Recipients ................................................................................... 9

    �    Project Results............................................................................................. 9

    �    OIG Analysis of Errors ............................................................................... 10

    �    Characteristics of Foreign-Born Recipients with U.S. Absences................ 11


    CALIFORNIA PROJECT ................................................................................. 13


    �    Project Results........................................................................................... 13

    �    OIG Analysis of Errors ............................................................................... 14

    �    U.S. Absences by Foreign-Born Recipients............................................... 15


    RESIDENCY DETERMINATIONS .................................................................. 16


CONCLUSIONS AND RECOMMENDATIONS .................................................... 18


APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments
                                                     Acronyms

FO     Field Office


FY     Fiscal Year


HEP    High-Error Profile


OIG    Office of the Inspector General


OQA    Office of Quality Assurance and Performance Assessment


RAFC   Regional Anti-Fraud Committee


SSA    Social Security Administration


SSI    Supplemental Security Income

                                                                      Introduction

OBJECTIVE
The objective of our evaluation was to assess the effectiveness of the Social Security
Administration’s (SSA) special projects in identifying Supplemental Security Income
(SSI) recipients who receive improper or fraudulent payments.

BACKGROUND
The SSI program has provided cash assistance to financially needy individuals who
are aged, blind or disabled since 1974. The program paid benefits totaling about
$28.1 billion to 6.6 million recipients during the Fiscal Year (FY) ended
September 30, 1999.1 SSA recognizes that the program is vulnerable to payment
errors because of its administrative complexities and the requirement that SSA:
(1) monitor changes in recipients’ living arrangements, income, and resources; and
(2) adjust benefit amounts accordingly.

SSA estimated that it processed 1.1 million SSI payment suspension actions during
FY 1998. Figure 1 shows the frequency of payment suspensions by the most common
reasons.

                        Figure 1. Reasons for Suspension of SSI Payments


                                              Absent from U.S.
                              Other                1.7%
                              15.6%
                                                                                       Excess Income
                                                                                           45.6%
    Institutionalized
          8.7%




         Recipients Were
         Uncooperative or
       Could Not Be Located              Death
              10.4%                      18.0%




   1
       Social Security Accountability Report for Fiscal Year 1999, pages vi and vii.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                       1
Management Action Plan

In October 1998, SSA issued a report entitled, “Management of the Supplemental
Security Income Program: Today and in the Future.” The report discussed various
initiatives to strengthen the integrity of the SSI program. It categorized the initiatives as
payment accuracy, continuing disability reviews, program fraud, and debt collection.
The report identified the redetermination (redet) process as the most powerful tool for
improving payment accuracy. The report also discussed anti-fraud initiatives involving
residency, disability, and fugitive felon projects.

The report stated that SSA realized savings of $8 for each $1 spent for redets. The
redets are cost-effective because SSA identifies and selects cases that are most likely
to contain payment errors. The redet process weighs the risk of payment error based
on individual case characteristics. The data used to develop the risk factors is derived
from a random sample of SSI recipients, called the Change Rate Study. Depending on
the risk of error (low, middle or high), SSA determines the frequency and methodology
for conducting the redets. For example, high-risk cases are subject to more frequent
redets and require personal contact with the recipient, whereas low-risk cases are
reviewed less frequently and are by mail. For FY 1999, SSA conducted 2.1 million
redets, including 0.5 million High-Error Profile (HEP), or high-risk cases.

One of the anti-fraud initiatives discussed in the report involved identifying recipients
who were not U.S. residents. The initiative used contracted investigators at border sites
in California, New Mexico, and Texas to verify residency. Investigations were done for
cases that field office (FO) staff determined to be suspect, generally because of
suspicious addresses or prior periods of nonresidency.

The management plan also discussed the Office of the Inspector General’s (OIG)
residency verification project performed in El Paso, Texas. In November 1996, OIG
sent mailers to 2,089 SSI recipients living near the U.S.-Mexico border requiring that
they provide documentary proof of U.S. residency. Review of the recipients’ responses
resulted in 580 investigations due to inadequate supporting records, no responses, or
questionable addresses. Those investigations resulted in 153 suspensions, or
investigation of 26.4 percent of the cases. OIG’s analysis of the suspended cases
identified such common characteristics as long time lapses since their prior face-to-face
redets, citizenship status, and suspicious addresses.2

Special Projects

In 1998, the Regional Anti-Fraud Committee (RAFC) in New York, including SSA
regional and OIG staff, initiated a project primarily to address residency errors. SSA
based the project on a listing of 10,175 foreign-born SSI recipients who resided in
New York State and had not used Medicaid services for the 15-month period ended
October 1998. The rationale was that the failure of recipients to use medical assistance
   2
      SSA/OIG report, “Southwest Tactical Operations Plan: Investigative Results,” A-06-97-22008,
issued March 31, 1998.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                    2
for a long period might indicate U.S. absences. SSA was also concerned that recipients
may be deceased or may be individuals with fictitious identities. SSA subsequently
expanded the project to include 18,679 U.S.-born recipients who also had not used
Medicaid services for the 15-month period ended March 31, 1999.

Since this project focused on residency errors, SSA expanded the redet procedures to
include special steps to detect U.S. absences. Specifically, FOs were instructed to:
(1) conduct face-to-face interviews with the recipient; (2) review photo identification to
verify the identity of the recipient; (3) review and copy the recipient’s passport, air
tickets, and related credit receipts; and (4) administer a questionnaire about absences
from the country.

In 1999, SSA initiated a similar project in the State of California. This project included
11,351 SSI recipients who were at least 78 years old and had not used MediCal (the
State’s Medicaid program) for at least 1 year. The selected cases included both foreign
and U.S.-born recipients.

New York and California have larger foreign-born SSI populations than any other State.
As of December 1998, SSA estimated there were 107,860 and 260,770 non-U.S.
citizens receiving SSI benefits in New York and California, respectively. Both States are
major U.S. points of entry for international travel while California, in addition, shares a
land border with Mexico. According to SSA statistics, New York and California
accounted for about 55 percent of the entire U.S. noncitizen population receiving SSI
as of December 1998. Conversely, there were 19 States with less than
1,000 noncitizens receiving SSI benefits. Figure 2 shows the distribution of noncitizen
SSI recipients among the States.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)             3
                   Figure 2. Distribution of Noncitizens Receiving SSI




                                                                          Noncitizen SSI Recipients
                                                                                   by State

                                                                              Under 1,000 (19)
                                                                              1,000 - 2,499   (8)
                                                                              2,500 - 4,999   (9)
                                                                              5,000 - 9,999   (6)
                                                                              10,000 - 49,999 (5)
                                                                              50,000 - 99,999 (2)
                                                                              Over 100,000 (2)




Residency Determinations

One SSI eligibility requirement is an individual’s intent to maintain permanent
U.S. residency. Residency ends when a recipient leaves the United States and does
not intend to return or abandons U.S. residency status. In addition, recipients are
required to be present in the United States, and absences of 30 consecutive days or a
full month result in loss of benefits regardless of intent until after the individuals’ return
for at least 30 consecutive days. On the other hand, returning to the United States for
30 consecutive days should not reestablish eligibility if the recipient does not intend to
maintain permanent U.S. residence. SSI recipients are required to report to SSA any
planned absences from the United States of 30 days or more. These reporting
requirements are explained to recipients at the time the initial claim is filed and during
redets.

In February 1998, SSA issued instructions to clarify the distinction between
nonresidency and absences from the United States of at least 30 days.3 The
instructions briefly discuss how to develop each situation. They also cite examples of
questionable circumstances that require additional questions of the recipient and
explain when to obtain supporting documentation of residency or collaborating
statements from third parties.4




   3
       SSA Program Circular No. 01-98-OPBP.

   4
       SSA’s Program Operations Manual System, section GN 00303.740.



Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                      4
SCOPE AND METHODOLOGY
To accomplish our objective we:

   ▪   reviewed data from the FY 1997 Change Rate Study;

   ▪	 analyzed case data from the residency projects performed in New York and
      California to develop error rates and identify the causes for errors;

   ▪	 followed up with cases in New York that involved recipients whose benefits were
      suspended to determine if their benefits were later reinstated or terminated;

   ▪	 reviewed reports issued by SSA’s regional offices in Dallas, Texas, and
      Richmond, California, on residency initiatives performed in those two States;

   ▪	 discussed procedural guidelines related to the development of residency
      determinations with SSA staff from Baltimore, Maryland, and
      Richmond, California; and

   ▪	 analyzed the data obtained by the Office of Quality Assurance and Performance
      Assessment (OQA) during its sample review of HEP cases included in the
      FY 1999 Change Rate Study.

We analyzed the error cases, especially for the New York project, to identify case
characteristics, reasons for the errors, and their frequency and impact. We were
primarily concerned with cases that SSA had categorized with errors when benefits
were either still being paid or had been suspended because the recipients were
nonresponsive or could not be located. We followed up on cases to determine how
SSA resolved the cases and if an error actually occurred.

We conducted field work in Baltimore, Maryland; Dallas, Texas; Richmond, California;
and New York, New York. The entity reviewed was the Office of Program Benefits
within the Office of the Deputy Commissioner for Disability and Income Security
Programs. We performed our review from June 1999 to April 2000 in accordance with
the Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)        5
                                             Results of Review

The special projects involving SSI recipients who did not use Medicaid disclosed that
SSA had not detected a significant number of recipients who were ineligible during
periods of absence from the United States. However, the special projects identified an
overall error rate that was about half the rate estimated for the HEP redet process.
There were high-risk factors related with these errors, primarily foreign-born status.
Also, the projects determined that payment errors associated with nonresidency tended
to be large dollar amounts.

HEP Redetermination Process

The management plan for the SSI program states that redets are the most powerful tool
for improving SSI payment accuracy. Redets are post-entitlement reviews to verify the
continuing eligibility of recipients. The selection of HEP cases identifies recipients who
are most likely to have SSI payment errors.

OQA is the SSA component that selects random samples (called Change Rate Studies)
of SSI recipients to identify high-risk factors for HEP redets. For FY 1999, OQA
identified 776 cases from a stratified random sample of 9,558 post-entitlement cases
that were categorized as HEP cases. The 776 cases were reported in the “Fiscal
Year 1999 Supplemental Security Income Redeterminations Change Rate Study,”
issued in draft on December 20, 1999. The redet reviews performed for those cases
resulted in an error rate of 48 percent and retroactive overpayments that averaged
$588 per case reviewed. SSA conducted about 503,000 HEP reviews in FY 1999.
Using the OQA data, we estimated retroactive overpayments related to the FY 1999
HEP cases totaled $295,949,300.5

Special Projects

SSA initiated redet projects to identify ineligible SSI recipients based on their failure to
use Medicaid services for extended periods. The rationale was that financially needy
individuals who are aged or disabled are likely to use Medicaid services on a regular
basis. Thus, SSI recipients who have not used Medicaid for long periods may have left
the United States or died. The first project in New York focused on foreign-born
recipients and was expanded to U.S.-born recipients. Similar projects were started later
in California and New Jersey. In addition, SSA is planning to expand the initiative to
other State and local governments.




   5
     We are 90 percent confident that the actual overpayment amount was between $234,771,122 and
$357,127,478.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                   6
Summary of Error Analysis

We found that HEP redets were the most effective in identifying payment errors.
Among the special projects, the New York project involving foreign-born recipients was
significantly more effective than the others. The foreign-born recipients had error rates
and average overpayments that were significantly higher than the other projects. The
special projects involving U.S.-born recipients, however, resulted in error rates that were
actually less than the error rate detected from a random sample of recipients, the
1997 Change Rate Study. Table 1 provides a comparison of the error rates and
average overpayments for the various redet projects.

            Table 1. Comparison of Error Rates and Average Overpayments


                                 Total             Number              Error           Average
                Project         Reviews6           of Errors           Rate          Overpayment


        New York
        � Foreign-Born             8,991             3,653            40.6%               $711
        � U.S.-Born               14,825             2,491            16.8%               $212
        Total                     23,816             6,144            25.8%               $401


        California
        � Foreign-Born             4,835             1,089            22.5%               $405
        � U.S.-Born                3,990               652            16.3%               $288
        Total                      8,825             1,741            19.7%               $352

        HEP Sample7                  776               373            48.1%               $588


        1997 Change
        Rate Study                9,460              1,694            17.9%               $178




    6
      In addition to completed HEP redets, total reviews include situations in which recipients were
outside the United States, could not be located, did not cooperate during the redet process, or were
deceased.
    7
      The HEP error rate and average overpayment are estimates based on the sample of 776 HEP
reviews included in OQA’s FY 1999 Change Rate Study. We limited our review to retroactive
overpayments to calculate an error rate comparable with the special projects.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                       7
NEW YORK PROJECT
The RAFC, including SSA regional and OIG staff, initiated a special redet project in
New York State to assess the eligibility status of SSI recipients who had not used
Medicaid services for at least 15 months. SSA focused first on foreign-born recipients
and then on U.S.-born recipients. All of the error cases were referred to OIG for
possible investigation.

Foreign-Born Recipients

SSA conducted special redet reviews for 8,991 foreign-born SSI recipients from
New York State. The intent was to review recipients who were in current pay and had
not used Medicaid services over the 15-month period August 1997 through
October 1998. The State had indicated that the listing of recipients represented
noncitizen residents. However, some 32.5 percent of the individuals reviewed were
naturalized citizens. Specifically, the reviews consisted of 6,070 noncitizens (i.e., legally
admitted residents) and 2,921 naturalized citizens.

SSA completed reviews on these recipients during the period November 1998 through
June 1999. In addition, the following special procedures were performed at FOs to
ensure that SSA staff interviewed the actual recipients and to improve the detection of
individuals with unreported U.S. absences:

   ▪   redets were performed face-to-face with the recipients;

   ▪   each recipient’s photo identification was reviewed;

   ▪   a questionnaire about absences from the United States was completed;

   ▪   passports were requested and photocopied; and

   ▪   airline tickets and related credit card receipts were reviewed.

The reviews of foreign-born recipients included a significantly higher percentage of
recipients age 65 and over than the percentage in the total SSI population. The
breakdown was as follows:

   ▪   Aged - 72 percent
   ▪   Disabled - 27 percent
   ▪   Blind - 1 percent

The breakdown for the SSI population of 6.6 million recipients in December 1998 was
20.3 percent aged, 78.5 percent disabled, and 1.2 percent blind.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)           8
U.S.-Born Recipients

SSA subsequently reviewed 15,914 U.S.-born SSI recipients who were in current pay
and had not used Medicaid over the 15-month period January 1998 through
March 1999. Our analysis of the reviews used a data base that included results
recorded through October 31, 1999. At that time, some 14,825 reviews had been
completed.

SSA completed reviews on these recipients during the period June through
December 1999. The special procedures used on the foreign-born population were also
used in the review of these recipients. The demographic results of the U.S.-born
recipients were similar to that of the entire SSI population. The breakdown was as
follows:

   ▪   Aged - 21 percent
   ▪   Disabled - 78 percent
   ▪   Blind - 1 percent

Project Results

SSA reported the results of the New York project based on the status of recipients’
benefits after the reviews were completed. A summary of the errors that were reported
is categorized below.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)        9
                Table 2. Types of Errors Reported for the New York Project


                                    New York Foreign-Born                  New York U.S.-Born


                                   Number           Percent of         Number            Percent of
           Type of Error           of Errors         Reviews           of Errors          Reviews


        Current Pay8                 1,038             11.5%               792               5.3%
                                                             9
        Absence from U.S.              880              9.8%                 88              0.6%
        Uncooperative                  677              7.5%               496               3.3%
        Address Unknown                664              7.4%               370               2.5%
        Excess Resources               161              1.8%               210               1.4%
        Deceased Recipient              85              0.9%               123               0.8%
        Excess Income                   71              0.8%               212               1.4%
        Other                           77              0.9%               200               1.3%

        Total                        3,653             40.6%             2,491             16.8%

        Total Reviews                                  8,991                              14,825



OIG Analysis of Errors

We performed supplemental analyses to more accurately determine the causes of the
errors. Our primary focus was on the reviews of foreign-born recipients because the
error rate was more than double the rate for U.S.-born recipients. Our analysis showed
that 20.3 percent of the foreign-born recipients were overpaid because of
U.S. absences.10 In contrast, only 0.2 percent of the U.S.-born recipients were overpaid
because of absences.11



    8
       These cases represent recipients who had an overpayment as a result of the redet but continued to
be eligible for benefits.
    9
       We noted that for 8,110 foreign-born recipients reported as noncitizens and naturalized citizens, the
error rates were 11.9 and 8.3 percent, respectively. Despite the difference, both rates were significantly
higher than the 0.6 percent reported for U.S.-born recipients.
    10
        We determined that 1,829 foreign-born recipients were absent from the United States for 30 or
more days. Included are 880 recipients who were in nonpay status because they were outside the
United States at the time of the review and 949 recipients who had prior unreported U.S. absences.
    11
        There were 109 U.S.-born recipients who had an absence from the United States of at least
30 days. However, we excluded 75 recipients, of whom 16 were actually born outside the United States
and 59 were born in Puerto Rico. We believe the recipients born in Puerto Rico should be excluded from
the U.S.-born population. Like others who live outside United States, individuals who live in Puerto Rico
are not entitled to SSI benefits. Therefore, these recipients should more appropriately be included in the
foreign-born population.



Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                         10
The project was also expected to identify unreported recipient deaths. There were
85 deaths reported for foreign-born recipients. Our analysis, however, disclosed that
55 of those deaths were identified by other means. Also, there was fraud potential for
9 of the remaining 30 deaths based on our determination that benefits issued after the
month of death were negotiated. Our analysis of U.S.-born recipients had similar
results in that 110 of the 123 reported deaths were detected by other means. Ten of the
remaining 13 deaths involved cases with potential fraud. In total, the New York project
identified 19 deceased recipients (or 0.08 percent of the 23,816 cases reviewed) with
potential fraud.

We also followed up to determine how SSA resolved 1,341 cases involving foreign-born
recipients whose benefits were stopped because they either could not be located or
did not cooperate during the redet process. Our analysis showed that SSA had not
done redets for 660 (49.2 percent) of these individuals. Rather, these recipients either
had their eligibility terminated because they were in a nonpay status for 1 year
(464 recipients) or they were still in nonpay status (196 recipients). Thus, SSA did not
develop these cases for possible payment errors.

Characteristics of Foreign-Born Recipients with U.S. Absences

We have four observations about the foreign-born recipients who were ineligible for SSI
during U.S. absences.12 First, as shown in the following diagram, 7 countries accounted
for 58 percent of the foreign visits.




    12
       This supplemental analysis was limited to 1,522 of the 1,829 recipients who had a period of
absence from the United States of at least 30 days. This was done because some information, such as
the country visited, was not available on the New York data base for the other 307 recipients who were
outside the United States for 30 days or more.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                         11
          Figure 3. Countries Visited by New York Foreign-Born SSI Recipients



                                       Greece   Ecuador
                             Jamaica     3%       3%
                               4%

        Dominican Republic
               32%                                                                   Other
                                                                                     42%




                                       Haiti       Philippines   India
                                        8%             4%         4%




Second, 89.6 percent of the recipients were at least 65 years old. Third, according to
SSA’s analysis of the entire foreign-born population, there had been long time lapses
since the recipients’ last face-to-face redets. Face-to-face redets had not been
performed for 57 percent of these recipients in over 4 years. In addition, 32 percent of
the recipients did not have any type of redet in over 4 years.

Fourth, 70.4 percent of the overpayments were established because of U.S. absences.
The average overpayment recorded for these recipients was 233 percent higher than
the average overpayment established for the other foreign-born recipients with errors.13
The large dollar overpayments in these cases resulted from the length of time the
recipients were ineligible. Some recipients were absent from the United States for
several years or had several absences which totaled years. SSA continued to pay
benefits because the absences were neither reported nor detected.

Example

A claimant applied for SSI benefits as a resident of New York State in April 1992 and
began receiving payments the following month. The New York redet project disclosed
that the recipient traveled to the Dominican Republic (his place of birth) in August 1992,
1 month after SSA performed a face-to-face redet (and explained to him the SSI
reporting responsibilities). The recipient was absent from the United States from
August 1992 to March 1998, reportedly residing in the Dominican Republic during that
period.


   13
      The average overpayment of $2,959 for the 1,522 recipients is 233 percent higher than the
average $889 overpayment established for the other 2,131 recipients with errors.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                  12
After returning to the United States for 1 month in March 1998, the recipient again
traveled to the Dominican Republic in April 1998 and reportedly lived there until he
returned to the United States in January 1999. It was apparent from the timing that the
recipient returned to the United States in response to SSA’s letter requiring a
face-to-face redet as part of the New York project. Both absences from the
United States were not reported to SSA, even though he was informed of the reporting
responsibilities on at least three occasions. The recipient continuously received SSI
benefits for 6 years and 9 months while he was living outside the U.S. for all but
5 months. As a result, the recipient was overpaid $28,243.

The recipient has since reestablished eligibility and is receiving benefits. SSA is
applying the maximum allowable reduction of 10 percent of the SSI payment (current
reduction is $52.30 per month) to recover the overpayment. However, even assuming
the 80-year old recipient remains eligible, full recovery would take about 45 years.

CALIFORNIA PROJECT
SSA Region IX initiated a redet project in California similar to the New York project.
SSA identified 10,701 recipients who were age 78 and older and had not used Medicaid
services for at least 1 year. SSA conducted reviews of these recipients starting in
August 1999 and, as of April 2000, the project was about 98 percent complete. The
following special procedures were adopted from the New York project to ensure that
SSA staff interviewed the recipient in question:

   ▪   redets were performed in person rather than by telephone; and
   ▪   each recipient’s identification was reviewed.

However, FO staff was not required to complete the residency questionnaire that was
used in New York or ask for passports and related credit card receipts as was done in
New York.

This project did not separately identify foreign and U.S.-born recipients. We analyzed
the project to determine if there were any significant problems unique to one population,
such as those found in the New York project. Our analysis of the project was limited to
the 8,825 recipients who were reviewed through December 30, 1999, or 82.5 percent
of the 10,701 recipients included in the review. The 8,825 recipients included
4,835 foreign-born (55 percent) and 3,990 U.S.-born (45 percent) individuals. The
foreign-born recipients included 1,775 naturalized citizens (37 percent) and
3,060 noncitizens (63 percent).

Project Results

The results reported below for the California project are based on the status of the
recipients’ eligibility after the reviews were completed. The following table shows a
distribution by types of errors.



Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)        13
                 Table 3. Types of Errors Reported for the California Project


                                   California Foreign-Born               California U.S.-Born


                                  Number           Percent of        Number           Percent of
            Type of Error         of Errors         Reviews          of Errors         Reviews

         Current Pay14                297             6.1%              166               4.2%
         Absence from U.S.            295             6.1%                18              0.5%
         Uncooperative                120             2.5%                91              2.3%
         Address Unknown              205             4.2%              111               2.8%
         Excess Resources              45             0.9%              116               2.9%
         Deceased Recipient            61             1.3%                58              1.5%
         Excess Income                 34             0.7%                63              1.6%
         Other                         32             0.7%                29              0.7%
         Total                      1,089            22.5%              652              16.3%

         Total Reviews                                4,835                              3,990



OIG Analysis of Errors

The results for the California project were similar to New York, except that the error rate
for the foreign-born population was significantly less than the rate detected in New York.
Nonetheless, unreported absences from the U.S. accounted for 33.4 percent of the
errors and 57 percent of the overpayments in the foreign-born population.15

The California project was also expected to identify unreported recipient deaths.
However, our analysis disclosed that, at most, the project identified deaths for
0.44 percent of the recipients reviewed.16 Nonetheless, the project disclosed several
cases involving significant amounts of benefits paid and fraudulently negotiated by
third parties after beneficiaries’ deaths. These cases were referred to OIG for
investigation.




    14
        These cases represent recipients who had an overpayment as a result of the redet but continued
to be eligible for benefits. We did not determine the cause of the overpayments.
     15
        There were 364 absences, consisting of 295 recipients who were outside the United States at the
time of the reviews and another 69 who, during the project’s redets, were found to have prior unreported
absences.
     16
        Only 39 of 123 deaths reported for the project actually resulted from the review. Of those, we
verified that 22 deaths were detected by the project and 17 may have been.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                      14
Example

A recipient receiving both SSI and Social Security retirement benefits died in

August 1988. Nevertheless, SSA continued to send benefit checks to the address of

record until January 2000, when a California project review discovered the recipient was

deceased. The FO found that the recipient’s son, now age 75, had been receiving and

cashing the recipient’s benefit checks. The amount of funds illegally obtained totaled

$83,686. This case was referred to OIG for investigation.


The special procedures implemented for the California project, specifically requiring a

face-to-face redet and requiring positive identification, resulted in the discovery of this

fraudulent activity. It should be significantly noted that two redets conducted after 1988

did not detect this recipient’s death. One redet was done in April 1991 by mail and

another redet in August 1995 by telephone.


U.S. Absences by Foreign-Born Recipients

The project disclosed that 364 of the 4,835 foreign-born recipients reviewed
(7.5 percent) were overpaid because of U.S. absences.17 For the U.S.-born recipients,
only 20 of the 3,990 (0.5 percent) recipients reviewed were determined to have been
absent from the United States for at least 30 days.18

There were at least three likely factors that resulted in a lower residency error rate for
foreign-born recipients in California than in New York. First, the methodology used for
the California project did not focus as strongly on the residency issue as New York.
Second, there is a high volume of border crossings and few regulatory burdens on
U.S. citizens and residents in crossing into and out of Mexico. Thus, it would be simpler
for a recipient who resides in Mexico or in other Latin American countries to appear for
a redet in California than for an individual returning to New York for a redet from a
foreign country. Third, recipients—age 78 and older—are probably less mobile and less
likely to travel than younger recipients. Nonetheless, U.S. absences were the most
significant cause for errors. The following example illustrates SSA's vulnerability to
overpaying SSI benefits while recipients are absent from the United States for extended
periods of time.

Example

A husband and wife, age 88 and 86, were receiving SSI benefits based on an
application filed in August 1991. SSA conducted only two redets, one in February 1992
and the other in October 1993. The California project resulted in a requested

    17
       There were 295 recipients whose benefits were stopped because they were outside the
United States at the time of the review and another 69 recipients with overpayments as a result of a prior
unreported absence.
    18
       There were 18 recipients whose benefits were stopped because they were outside the
United States at the time of the review and another 2 with overpayments as a result of a prior unreported
absence.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                        15
face-to-face redet in September 1999, but the couple failed to come into the FO. The
office supervisor attempted to contact the couple, using the telephone number reported
on their SSI records. This number connected the supervisor to a board and care home
in which the couple had lived. The current operator of the home stated that the couple
traveled to the Philippines prior to September 1995, the month she became the home's
operator.

However, SSI benefits were paid to this couple, by direct deposit into a bank account,
for the period August 1991 through September 1999, the month SSA discovered the
couple’s absence from the United States. SSA reported that this absence resulted in an
overpayment of $47,417. As of April 2000, this couple was still not receiving benefits
because of absence from the United States and none of the overpayment had been
recovered.

RESIDENCY DETERMINATIONS
SSA has recognized U.S. residency determinations as a SSI program fraud initiative,
particularly for States that border Mexico. In February 1996, SSA contracted with a
private vendor to conduct home visit residency verifications for suspect cases referred
by the Chula Vista District Office. Located near the California border with Mexico, this
office had received complaints about recipients who allegedly resided in Mexico. We
issued an audit report disclosing that the preliminary results from contracted home visits
were that 110 of 233 recipients reviewed (47.2 percent) either were living outside of the
United States or could not be located and their payments were suspended.19 The
initiative was later expanded to other offices in southern California and Texas.

OIG initiated another residency project in November 1996. Mailers were sent to all SSI
recipients reported as residing in El Paso, Texas, near the border with Mexico. The
recipients were required to verify their residences and provide supporting
documentation such as tax payment records, utility bills, leases, or rent payment
records. We investigated 580 of the 2,089 recipients included in this review because
they either did not respond or did not provide sufficient evidence to support their
U.S. residency. The result was that SSA suspended SSI payments to 153 of the
580 recipients investigated (26.4 percent).20 As noted in our report on residency
verifications, FOs need the means to verify residency for recipients with suspicious
addresses and prior periods of absence from the United States, to prevent benefits from
being paid to individuals during periods of ineligibility.

In reviewing the New York and California projects, we found that FOs relied on the
“physical presence” and “30 consecutive day” rules when deciding whether a recipient
was an eligible U.S. resident. SSA identified prior absences for many recipients during
the redets conducted during the special projects but, because the recipients had

   19
       SSA/OIG report, “The Adequacy of the Residency Verification Process for the Supplemental
Security Income Program,” A-06-96-62001, issued May 1997.
    20
       SSA/OIG report, “Southwest Tactical Operations Plan: Investigative Results,” A-06-97-22008,
issued March 1998.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)                     16
returned to the United States for at least 30 days, benefits were continued. Other
recipients had their benefits stopped because of absences, but again started receiving
benefits beginning 30 days after they returned to the United States, even though they
had lived for years in foreign countries.

Example

A SSI recipient, who received benefits since 1984, was placed in a nonpay status in
March 1999 because she did not respond to FO efforts to conduct a redet as part of the
New York project. This recipient eventually contacted SSA and a redet was conducted
in February 2000. The redet disclosed that the recipient had traveled to the Dominican
Republic seven times since 1990.

The seven absences from the United States consisted of 79 of the 109 months
(72.5 percent) from November 1990 to November 1999. Four of the absences were
during the winter months and the last absence lasted 39 months. The timing is such
that it is likely the recipient returned to the United States because of a required
face-to-face redet. We also noted that a prior redet, done in February 1998, was
completed by mail and did not disclose an absence from the United States even though
the recipient, at that time, was living in the Dominican Republic.

The recipient did not report any of the seven absences to SSA, even though she was
informed of the reporting responsibilities on at least five occasions. SSA had not
conducted a face-to-face redet on this recipient since December 1988, a lapse of over
11 years. The prior two redets were conducted by mail because SSA’s selection
process categorized this recipient as a low-risk case.

The recipient continuously received SSI benefits during the U.S. absences. As a result,
she was overpaid $27,219. The recipient reestablished eligibility during the special
redet in February 2000 (based on physical presence in the United States for 30 days)
and is again receiving SSI payments. To recover the overpayment, SSA is applying the
maximum allowable reduction of 10 percent of the SSI payment (current reduction is
$59.90 per month). However, at the current rate, full recovery from the 82-year old
recipient will take over 37 years.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)         17
                                             Conclusions and
                                            Recommendations
The special projects conducted in New York and California were not as effective in
identifying benefit errors as the redet process used by SSA to review on-going SSI
eligibility. Nonetheless, the project in New York disclosed that the redet process was
not effective in identifying unreported U.S. absences. These absences can remain
undetected for extended periods of time and result in large overpayments. The
projects, especially New York, also disclosed that the issue of absence from the
United States was a problem that almost exclusively involved foreign-born SSI
recipients. This is the key demographic factor that SSA should consider in planning
similar projects in the future. Other high-risk factors included prior U.S. absences, long
time lapses since prior face-to-face redets, and recipients age 65 and over.

We also noted that SSA has used other methods to assist FOs in establishing and
monitoring the residency status of claimants and recipients determined to be at high
risk. Such methods should be considered both as preventive procedures at the time of
application and as monitoring procedures after entitlement to prevent paying SSI
benefits to recipients absent from the United States for extended periods. Therefore,
we recommend that SSA:

1. 	 Integrate high-risk factors related to residency into the redet case selection process.
     Factors identified as part of the projects include foreign-born status, prior periods of
     U.S. absences, time lapsed since a redet by personal contact was done, and the
     ease of access to foreign travel.

2. 	 Focus future special initiatives similar to the New York project based on the high-risk
     factors specified above.

3. 	 Expand the use of contracted investigators to visit the residences of claimants or
     recipients considered at high risk of not satisfying the U.S. residency requirements.

4. 	 Use other methods to address residency issues, such as: (1) issuing "come-in"
     letters that require face-to-face interviews of recipients considered high-risk,
     (2) requiring high-risk recipients to provide documentation to support their residency
     status, and (3) requiring photo identification to verify the identity of recipients during
     redets.

5. 	 Develop factors, such as the extent of prior periods of U.S. absences, to assist
     FOs in establishing the intent of claimants and recipients to be permanent
     U.S. residents.

6. 	 Use penalties against recipients who have patterns of not reporting extended
     U.S. absences.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)             18
AGENCY COMMENTS

SSA generally agreed with our recommendations. The Agency believes, however, that
using foreign-born status as one of the high-risk factors would raise constitutional issues
and that such a policy probably would not satisfy the resulting judicial scrutiny. SSA’s
OGC added that “non-citizen status” would be a legally supportable classification. The
Agency also commented on the lack of a recommendation concerning the key factor
being used in its SSI projects, the nonutilization of medical insurance.

OIG RESPONSE
We are encouraged by SSA’s commitment to identifying high-risk characteristics and
measuring cost effectiveness in the redetermination case selection process. Regarding
the use of foreign-born status as the lone risk factor, OGC believes that a policy of
“targeting” foreign-born recipients would not be legally supportable; however, a
“classification” based on “non-citizen status” would be legally supportable. While we
generally agree with this analysis, it misses the point of our audit recommendation.

We are not recommending that SSA treat all foreign-born individuals differently under
the SSI program. As the OGC states, such a policy would be impermissible unless it
served a compelling governmental interest and was narrowly tailored to further that
interest. Instead, under our audit recommendation, foreign-born status would be one
relevant factor, among several factors, indicating a high risk of ineligibility for continuing
SSI payments due to a failure to meet SSI residency requirements.

Individuals with ties to a foreign country – here, the fact of their birth – would logically be
more likely to leave the country than individuals without such attachment. Nonuse of
medical benefits for one year is also relevant, because it may also indicate that an
individual has left the country. Finally, residence in an area near easy access to foreign
travel also increases the likelihood that the individual has left the country. We are only
recommending that SSA use country of birth as one of the indicators of possible
improper or fraudulent payments involving recipients who may be ineligible due to U.S.
absences.

We were unable to assess the effectiveness of using nonutilization of medical insurance
as a selection factor. The reason was that there was no control group of recipients who
had used their medical insurance for comparison purposes. However, we were able to
conclude the HEP redeterminations were significantly more effective than the special
projects. SSA needs to consider this when allocating resources to its SSI
redetermination efforts.

We also believe that SSA needs to consider the methods suggested in
recommendations 3 and 4 as procedures that can be used by field offices to
supplement, not replace other redetermination processes. These are tools that could
assist field staff in developing suspicious cases.



Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)            19
SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix A.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)   20

                                       Appendices





Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                                                        Appendix A


Agency Comments





Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                        SOCIAL          SECURITY

MEMORANDUM



           March   22,   2001                                                    Refer To: SJI-3


To:        James G. Huse, Jr.
           Inspector General

           William A. Halter /}1/ C[ ~
           Acting Commissioner of Social Security

Subject:   Office of the Inspector General (OIG) Draft Report, "Effectiveness of the Social Security
           Administration's Special ProjectReviews of Supplemental Security Income Recipients"
           (A-O9-99-6201O)-INFORMA TION


           Our comments to the subject report are attached. Staff questionsmay be directed to
           OdessaJ. Woods at extension 50378.

           Attachment:
           SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT

REPORT, "EFFECTIVENESS OF THE SOCIAL SECURITY ADMINISTRATION’S

(SSA) SPECIAL PROJECT REVIEWS OF SUPPLEMENTAL SECURITY INCOME

RECIPIENTS” (A-09-99-62010)



We appreciate the opportunity to comment on the draft report.

Following are our comments on the recommendations.


Recommendation 1


Integrate high-risk factors related to residency into the

redetermination case selection process. Factors identified as

part of the projects include foreign-born status,* prior periods

of U.S. absences, time lapsed since a redetermination by personal

contact was done and the ease of access to foreign travel.


Comment


We agree that the High Error Profile redetermination process is

an effective means of identifying high-risk characteristics.


Nevertheless, we support integrating two of the criteria

recommended. We do not agree with targeting foreign-born

recipients. SSA’s Office of the General Counsel (OGC) believes

that targeting the foreign-born raises constitutional issues.

OGC further believes that a policy of SSA targeting individuals

with a foreign-born status in its fraud prevention efforts would

be subjected to strict judicial scrutiny. Under such scrutiny,

the Agency would have to show that the proposed policy served a

compelling governmental interest and was narrowly tailored to

further that interest. OGC indicates that the Agency probably

could not satisfy that test.


We will explore integrating the "ease of access to foreign

travel," criterion pending further clarification from the OIG.


We incorporated prior recommendations from the New York project

to build consideration of prior periods outside the United States

into the national redetermination profiling criteria and we

currently use them in the profiling process.


We modified the redetermination profiling models in

September 1999 for the fiscal year 2000 profiles based on the

New York pilot results. We added the following variables:

Prior ineligibility due to recipient outside of the

United States; 2) prior ineligibility due to excess resources;

and 3) several medical diaries that were scheduled.



* We believe that the high-risk factor identified as “foreign-born

status” would be legally inappropriate classification. A

                                                       A
classification based on “non-citizen status” would be legally

                                                      legally
supportable.

supportable.


Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                                                                   2

OIG’s report does not include any recommendation concerning the

key variable that was part of the New York and California

residency pilots, that is, the non-utilization of medical

insurance. We believe this is a very important variable that

needs to be added to the redetermination profiles. We will

                                                       will
continue to pursue a matching agreement with the Health Care

                                                        Care
Financing Administration (HCFA) to obtain national data on

Medicaid usage. Once those data are available, the

redetermination profiles will use that variable to help target

the selection process. We believe the non-utilization of medical

insurance variable will be effective for identifying both

residency issues and other types of payment inaccuracies.


Recommendation 2


Focus future special initiatives similar to the New York project

based on the high-risk factors specified above.


Comment


As stated in the previous response, we agree that some, but not

all, of the variables suggested in the OIG report should be high—

risk factors used in the redetermination case selection process.


We have initiated a special SSI project in eight of the ten

regions to identify recipients who are deceased and recipients

who no longer reside in the United States. The target completion

date for all of the pilots is later this Spring. At that time,

the data will be analyzed to determine the cost effectiveness of

these projects. One possible outcome is a HCFA and SSA national

non-utilization match.


Recommendation 3


Expand the use of contracted investigators to visit the

residences of claimants or recipients considered at high risk of

not satisfying the U.S. residency requirements.


Comment


As part of the Agency’s anti-fraud key initiatives, we are

currently collecting data from a program with private vendors to

verify residency of recipients based on the non-utilization of

medical insurance variable. We will explore the feasibility of

using the contract investigators to verify residency using other

appropriate targeting mechanisms once the analysis of the

Medicaid non-utilization pilots has been completed.


Recommendation 4


Use other methods to address residency issues, such as:

(1) Issuing "come-in" letters that require face-to-face

interviews of recipients considered high-risk, (2) requiring



Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                                                                   3

high-risk recipients to provide documentation to support their

residency status, and (3) requiring photo identification to

verify the identity of recipients during redeterminations.


Comment


At the conclusion of the regional pilots mentioned in the comment

to recommendation 2, we will assess the most effective methods

for addressing residency issues, including the specific methods

identified in the recommendation, and provide options and

recommendations to the Commissioner.


Recommendation 5


Develop factors, such as the extent of prior periods of

U.S. absences, to assist field offices in establishing the intent

of claimants and recipients to be permanent U.S. residents.


Comment


At the conclusion of the above mentioned regional pilots and the

bio-metric pilot in New York, we will assess the most effective

method for addressing residency issues.


Recommendation 6


Use penalties against recipients who have patterns of not

reporting extended U.S. absences.


Comment


We agree with this recommendation. However, it should be noted

that SSA’s authority to impose administrative sanctions is

limited to situations that involve an omission of material fact

in a report to SSA, e.g., a redetermination.


Technical Comments


Page 4, under the Residency Determinations, reads:


       “…and absences of 30 consecutive days or longer result in

       loss of benefits regardless of intent until the individuals

       return for at least 30 days.”


Program Circular No. 01-98-OPBP as cited in the footnote states

that ineligibility occurs when a beneficiary is outside the

United States for a full calendar month and not 30 days

                                                   days. The

30 days requirement is needed to establish residency. Therefore,

this sentence should be changed to be consistent with SSA’s

regulations and read:


       “Individuals are SSI ineligible for a month in which they

       are outside the United States for a full calendar month



Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                                                                   4

       regardless of intent. Reinstatement of eligibility is the

       31st day of continuous presence in the United States,

       starting with the day of return.”


Page 10, footnote 11. Individuals born in Puerto Rico are

citizens of the United States and should not be treated

differently from any other citizen. They should not be excluded

from this count. It is unclear whether the 16 foreign-born

excluded from this count were citizens.





Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                                                        Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts
   William Fernandez, Director, Program Benefits Audit Division, (510) 970-1739

   Jim Klein, Audit Manager, Quick Response/Fraud Liaison, (410) 965-9739

Acknowledgments
In addition to those named above:

   Jack H. Trudel, Deputy Director

   Jim Sippel, Senior Auditor

   Janet Stein-Pezza, Program Analyst

   Lela Cartwright, Senior Auditor

   Alan Carr, Senior Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-99-62010.




Effectiveness of SSA’s Special Project Reviews of SSI Recipients (A-09-99-62010)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
